Review of ORD's Extramural Management
Specialist Position
                                             #7100141

Inspector General Division

Conducting the Review: Northern Audit Division Program Offices Involved: Office of Research and
Development

                                        Table of Contents

EXECUTIVE SUMMARY

CHAPTERS

1 INTRODUCTION

Purpose

Background

Scope and Methodology

Prior Audit Coverage

2 EMS POSITION HELPED TO IMPROVE ORD'S EXTRAMURAL MANAGEMENT

Advising ORD Management and Staff

Reviewing Extramural Procurement Packages

Performing Management Studies

Developing Professional Relationships

Coordinating Staff Development

3 IMPLEMENTATION OF EMS ROLE NEEDS CLARIFICATION

EMSs Performed PO Duties

Position Descriptions Needed Revision

OAM and GAD Unclear About EMS Role

Conclusion
Recommendations

ORD Comments and OIG Evaluation

4 SUPPORT STAFF PERFORMED EMS DUTIES AND SERVED AS PROJECT OFFICERS

Expertise of Support Staff Used to Address Workload

Support Staff Assisted EMSs Who Were Less Knowledgeable in Assistance Area

Support Staff Also Served as POs

Conclusion

Recommendations

ORD Comments and OIG Evaluation

5 EMS RESOURCE PLANNING IS NEEDED

ORD's Implementation of Corrective Actions

ORD's Extramural Budget Shifts and Declines

EMSs Performed "Other" Duties

Conclusion

Recommendation

6 EMSs CALL FOR IMPROVEMENTS

EMS Position Can Be Improved

EMSs Suggest Improvements to Guidance Documents

Conclusion

Recommendation

EXHIBIT

1 PRIOR AUDITS OF EXTRAMURAL MANAGEMENT

APPENDICES

   •   1 ORD'S RESPONSE TO THE DRAFT REPORT
   •   2 ABBREVIATIONS
   •   3 DISTRIBUTION
